No. __-____

In the Supreme Court of the United States
ROGER HAWES,
v.

Petitioner,

WILLIAM STEPHENS, BRAD LIVINGSTON, AND
PAMELA PACE,
Respondents.
ON PETITION FOR WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

CERTIFICATE OF SERVICE
CARSON J. TUCKER, JD, MSEL, Counsel of Record
LEX FORI, PLLC
117 N. First St., Suite 111
Ann Arbor, MI 48104
(734) 887-9261
cjtucker@lexfori.org

1
Pursuant to Supreme Court Rules and further Orders
of the Court dated April 15, 2020, undersigned
counsel sent on the below date by first class mail
and/or email if electronic service was consented to a
copy of Petitioner’s Petition for a Writ of Certiorari to
the Court of Appeals for the Fifth Circuit in the abovecaptioned case to counsel as follows:
Christopher Lee Lindsey
Assistant Attorney General for the State of Texas
300 W. 15th Street
William P. Clements Building
Austin, TX 78701
Attorney for Respondents Stephens and Livingston
Adam Fellows
Office of the Attorney General for the State of Texas
300 W. 15th Street
William P. Clements Building
Austin, TX 78701

Respectfully submitted,
Carson J. Tucker
Lex Fori, PLLC
Attorney for Petitioner
(734) 887-9261
Dated: December 7, 2020

